May 12, 2021
Via Filing and Messenger
Hon. Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re:

Servotronics, Inc. v. Rolls-Royce PLC, et al., No. 20-794

Dear Mr. Harris:
I represent respondent Rolls-Royce PLC in the above-captioned matter. Scott
Martin represents respondent The Boeing Company. We write to request a two-week
extension of time for filing respondents’ briefing, so that the deadline for respondents’
briefing would be June 21, 2021.
The parties have agreed to the foregoing extension. The parties believe that the
requested extension is appropriate because counsel for respondents have numerous
deadlines in other matters, including a certiorari-stage reply brief in CVS v. Doe in this
Court, No. 20-1374, due June 7, 2021; a response to a petition for rehearing in The Andy
Warhol Found. for the Visual Arts v. Goldsmith, No. 19-2420 (2d Cir.), due May 13, 2021;
a reply brief in Se. Emerg. Physicians v. Ark. Health & Wellness Health Plan, Inc., No. 203258 (8th Cir.), due May 17, 2021; an opening brief in Millennium Health, LLC v. Barba,
No. 21-35314 (9th Cir.), due May 20, 2021; and a reply brief in In re Xyrem (Sodium
Oxybate) Antitrust Litig., No. 20-md-2966 (N.D. Cal.), due June 10, 2021.
Should you need any additional information, please do not hesitate to let us know.
Yours sincerely,
/s/
Lisa S. Blatt
Cc: Scott Martin, Counsel for The Boeing Company
Counsel for Petitioner

